 DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


      Enhanced Configuration Controls and
       Management Policies Can Improve
           USCG Network Security
                 (Redacted)




    Notice: The Department of Homeland Security, Office of Inspector General, has redacted
    this report for public release. A review under the Freedom of Information Act will be
    conducted upon request.




OIG-08-82                                                             August 2008
                                           1
Background

A system’s network connections are the primary targets of most information technology
(IT) security attacks. Network connectivity has become an intrinsic part of conducting
business; thus, making security planning and controls very important. Network security
encompasses remote access, network tuning and monitoring, external connections,
boundary protection, internet usage, electronic mail security, and vulnerability
management. Sound network security practice dictates that all network connections be
identified and that threats and vulnerabilities associated with these connections be
analyzed. The network infrastructure is the first line of defense between the Internet and
networked information systems. Network security monitoring, detection, and analysis
are key functions and are critical to maintaining the security of networked information
systems. Vulnerability management, which is a combination of detection, assessment,
and mitigation of weaknesses, is critical to reducing the risks associated with
unauthorized access to network devices, systems, and data.

Information systems and networks are necessary for USCG business. Communications
capabilities are needed by USCG personnel stationed on land, as well as those individuals
that are at sea on its cutters. The Coast Guard Data Network Plus (CGDN+) supports
USCG’s sensitive, operational, and administrative information systems, as well as
unclassified e-mail transmission and delivery. The CGDN+ Backbone is a modern
common-user Transmission Control Protocol/Internet Protocol routed wide area network
(WAN). The Backbone allows the transfer of sensitive information across the WAN.
The Backbone design supports all Coast Guard districts and major commands. The
network infrastructure extends across the continental U.S., and includes Alaska and
Hawaii.

The CGDN+ backbone consists of
                                      . The CGDN+ system infrastructure includes
                                                                    systems. Four point of
presence (POP) sites control access to CGDN+. Each POP supports external routers that
provide for the transfer of sensitive but unclassified operational and administrative
information. The firewall provides filtering of network traffic to protect against security
intrusions, as well as controlling and authenticating access to each POP. The POP sites
are:

   •   USCG Commandant (COMDT), located in                     .
   •   USCG Financial Center (FINCEN), located in                .
   •   USCG Operations Systems Command (OSC), located in                              .
   •   USCG Electronics Systems Support Unit (ESU), located in                    .

Coast Guard cutters in port are provided pier side connectivity to CGDN+ by their
respective supporting stations, via a T1 capable link. When at sea, minimal connectivity
to CGDN+ is provided through a commercial satellite link, which must employ
            for transmission security. The shipboard network connections generally



                                             2

consist of a router, switch, virtual private network, servers, and workstations. Network
and system security patches and updates are deployed when the cutters               .

The USCG’s Telecommunications and Information Systems Command (TISCOM)
centrally manages CGDN+ and the POPs. Additionally, cutter connectivity to CGDN+ is
entirely under the purview of TISCOM. TISCOM is responsible for all issues relating to
the           security of CGDN+, including the configuration management of the
                  , providing guidance to the POP sites when policy changes require
modification of the                  , maintaining and replacing cutter network devices,
managing backups, alert notifications, and incident response. The POP site teams are
responsible for providing and maintaining remote access service engineering support for
access to CGDN+ 24 hours a day/7 days a week.

In addition to assessing the security of the                 for CGDN+ at the POPs and
aboard four selected USCG cutters, we conducted wireless scans for possible rogue
network access points at the POP sites and aboard the cutters. We also interviewed
TISCOM personnel regarding network administration and evaluated access control and
other security policies implemented to protect its network devices, systems, and data.
The diagram below depicts an overview of CGDN+, and the devices and locations where
we performed testing.




Source:


                                            3

Results of Audit

The overall security posture of the CGDN+ infrastructure is good. Network
security         are effectively protecting USCG’s network and data. Redundant
firewalls are protecting each of the POP sites.            firewalls are configured to block
connection attempts to scan the network. Auditing and logging is performed by a syslog
server, and firewall logs are monitored daily for intrusion attacks. TISCOM employs two
intrusion detection applications, which run simultaneously and are used to actively
monitor and analyze incoming and outgoing network traffic 24 hours a day/7 days a
week. No rogue network access points were discovered. We verified that USCG cutter
network devices and system connections are patched when they                    ; and
physical access to network devices aboard the cutters is restricted. Overall, the USCG’s
management of its network security is consistent with a majority of the policies,
practices, and controls required by the Department of Homeland Security’s (DHS) 4300A
Sensitive Systems Handbook, DHS’ CISCO Router Secure Baseline Configuration Guide,
and the National Institute of Standards and Technology Special Publication 800-53,
Recommended Security Controls for Federal Information Systems.

While USCG has been vigilant in its efforts to secure its network infrastructure, we
identified system vulnerabilities and areas of noncompliance with DHS’ configuration
         on its network                   . If these issues are not addressed, they may
compromise USCG’s                security. In addition, important policies and procedures
related to network access controls have not been developed. The additional measures we
are recommending can be easily implemented without affecting USCG operations and
will decrease the risks associated with the issues we identified.

                                                  Should Be Addressed

A number of management, operational, and technical controls impact network security,
including identification and authentication controls, audit logging, integrity controls, and
periodic reviews of programs/systems to determine whether changes that could adversely
affect security have occurred. While USCG has implemented the majority of these
controls, we identified several         configuration
                                      on its network           security          that could
adversely impact the security of its network infrastructure. Specifically, we identified:

•
        .
•
                                                                                            .
•
                                  .
•                                                                                       .
•                                                                       .
•
                                                                    .



                                             4

•                                         .
•                                                                                         .
•
                 .

Per DHS guidance, firewalls, when used in concert with a variety of additional security
controls, such as IDSs and authentication procedures, provide a level of assurance that
unauthorized personnel will be unable to access departmental systems and have proven to
be an effective means for securing a network. DHS requires that:

•
             .
•                                             .
•                                                                           .
•
                                                                        .
•
                                                                    .
•                                                               .
•                                                           .
•                                                                                     .
•
                                                       .

•                                                                                 .

The use of                                                           are inherently critical
high-risk vulnerabilities. While the risk to USCG’s network infrastructure for the
majority of the vulnerabilities identified above could be considered low, together they
present a medium to high risk because they can potentially provide an attacker with the
means to gain unauthorized access to USCG’s network. For example, an attacker can use
                                                                                   and gain
unauthorized access to the USCG network. The unauthorized or the non-intended use of
                poses a potential avenue for unfettered or even covert access to other
devices or systems within the infrastructure. The use of                              is
associated with numerous vulnerabilities from attackers gaining access to
            with network
                                . USCG needs to address these
                involving the configuration                           allowed on CGDN+ to
better protect the confidentiality, integrity, and availability of its systems and data, and
comply with DHS requirements.




                                                  5

Additional Policies and Procedures Should Be Developed

USCG has implemented guidelines and procedures pertaining to wireless access, standard
configurations for workstations, patch management, and incident detection and response.
However, USCG has not developed an access control policy or remote access policy to
govern employees’ access to the USCG network via modem or accessing the USCG
network via the Internet. Additionally, USCG management acknowledged that its
employees are
        .

Per DHS policy, components are required to implement access control measures that
provide protection from unauthorized alteration, loss, unavailability, destruction, or
disclosure of information. Access control policies are designed to reduce the risk of an
individual acting alone from engaging in fraudulent or malicious behavior. Data
communication connections via modem are to be limited and tightly controlled because
these connections can be used to circumvent security controls intended to protect DHS
networks. Data communication connections are not allowed unless the component’s
Information Systems Security Manager has authorized them. Furthermore, DHS policy
does not allow the
                 DHS information and systems.

There are significant security risks associated with remote access and dial-in capabilities.
Proper procedures and management of network connections are vital in mitigating these
risks. If untrusted or uncleared persons obtain unauthorized access, they can violate the
integrity, confidentiality, and availability standards of the department. Furthermore,
though USCG uses                                      to ensure that its


                              . For example, USCG does not verify that
                                               to reduce the risks of compromising
CGDN+. Therefore, USCG has no reasonable assurance that the employees’ personal
                      to the level that is acceptable in accordance with DHS security
policy and practices.

Recommendations

We recommend that the Coast Guard Commandant direct the Chief Information Officer
(CIO) to:

   Recommendation #1:                or otherwise address the      configuration
                                          in accordance with DHS policy, including the
   use of                                                .

   Recommendation #2:
                   .



                                             6

   Recommendation #3: Ensure that 

                , are    .


   Recommendation #4: Develop and implement security procedures for quarterly
   firewall testing, perimeter security testing, access control, and remote access.

   Recommendation #5: Prohibit the use 

                                 DHS information and systems. 


Management Comments and OIG Analysis

We obtained written comments on a draft of the report from Chief of Staff for USCG. 

We have included a copy of the comments in Appendix A. The Chief of Staff concurred 

with four of the five recommendations. The Chief of Staff for the USCG partially 

concurred with recommendation #5 because USCG will request a waiver from the DHS 

requirements. We reviewed the USCG management’s response and agree that the steps 

USCG plans to take satisfy the recommendations. 


********************* 

We conducted our audit from October 2007 to May 2008 under the authority of the 

Inspector General Act of 1978, as amended, and according to generally accepted 

government auditing standards. 





                                          7

Appendix A
Management Response




                      8

Appendix A
Management Response




                      9

Appendix A
Management Response




                      10 

Appendix B
Major Contributors to This Report


                   Information Security Audits Division

                   Edward G. Coleman, Director
                   Barbara Bartuska, Audit Manager
                   Tarsha Cary, Senior Auditor
                   Michael Horton, IT Officer
                   Thomas Rohrback, IT Specialist
                   Erin Dunham, Referencer

                   Advanced Technology Division

                   Richard Saunders, Director
                   Steve Matthews, Manager
                   Vincent Feaster, Electrical Engineer, SPAWAR
                   David Phelps, Computer Scientist, SPAWAR
                   Chad Cravens, Computer Scientist, SPAWAR
                   Birdie Rueangvivatanakij, Senior Security Analyst, Devine
                   Consulting




                                       11 

Appendix C
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Under Secretary, Management
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Chief Information Officer
                      Chief Information Security Officer
                      DHS Audit Liaison
                      Chief Information Officer, USCG
                      Deputy Chief Information Officer, USCG
                      Chief, Office of Communications Systems, USCG
                      Information Systems Security Manager, USCG
                      Audit Liaison, USCG

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                         12                                       

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
